                   AUDIT REPORT

      Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                    OIG-12-A-21      September 26, 2012




All publicly available OIG reports (including this report) are accessible through
                              NRC‟s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                          September 26, 2012



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S 10 CFR PART 31 GENERAL LICENSING
                            PROGRAM (OIG-12-A-21)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
10 CFR Part 31 General Licensing Program.

The report presents the results of the subject audit. Agency comments provided at the
September 4, 2012, exit conference have been incorporated, as appropriate, into this
report. On September 21, 2012, the agency provided a formal response to this report.
No changes were made to the report, based on the agency’s formal response.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Materials and Waste Safety Audit
Team, at 415-5914.

Attachment: As stated
                                     Audit of NRC‟s 10 CFR Part 31 General Licensing Program




EXECUTIVE SUMMARY

       BACKGROUND

       The Nuclear Regulatory Commission (NRC) issues two types of domestic
       licenses to users of nuclear materials. Specific licenses are issued to named
       individuals who have filed an acceptable application to use certain types or
       quantities of radioactive materials. In contrast, general licenses are provided
       by regulations found in Title 10, Code of Federal Regulations, Part 31, General
       Domestic Licenses for Byproduct Material. These regulations allow persons to
       receive and use a general licensed device containing byproduct or source
       material if the device has been manufactured and distributed in accordance
       with a specific license issued by NRC or an Agreement State.

       General Licensed Devices

       A general licensed device (GLD) consists of radioactive material encased in a
       capsule within a shielded device. NRC asserts that the GLDs are designed
       with inherent radiation safety features so that they can be used by persons with
       no radiation safety training or experience. A few of the more commonly used
       GLDs include fixed gauges, static elimination devices, x-ray fluorescence
       analyzers, and luminous (tritium) exit signs.

       How NRC Regulates GLDs

       NRC‟s Office of Federal and State Materials and Environmental Management
       Programs is primarily responsible for the regulation of GLDs. Specifically, the
       Licensing Branch within the office provides program oversight for the general
       license program. In addition to developing and implementing technical and
       policy guidance, the branch is responsible for the following:

             Safety evaluation reviews of sealed sources and devices–The design
             and use of a device must undergo a technical and safety review prior to
             distribution as a GLD. Satisfying the review ensures that the device
             meets NRC‟s safety requirements.

             General License Tracking System (GLTS)–GLTS facilitates the tracking
             and accountability of GLDs and general licensees. This database is
             populated primarily with information provided to NRC
             from device manufacturers.


                                        i
                              Audit of NRC‟s 10 CFR Part 31 General Licensing Program




      Registration–General licensees in possession of GLDs containing
      certain isotopes and activity are required to register their devices with
      NRC annually.

OBJECTIVE

The audit objective was to determine if NRC‟s general licensing program
provides for the necessary accountability and tracking of general licensed
devices to protect public health and safety.

RESULTS IN BRIEF

Many General Licensees Are Unaware of NRC Regulatory Requirements

Over the past decade, NRC has made some improvements to its oversight of
general licensees and GLDs to facilitate adequate protection of public health
and safety and the environment; however, opportunities exist for NRC to further
strengthen its oversight of this type of licensee. In order to improve program
oversight, NRC has developed and maintains GLTS and the registration
program. NRC can further improve oversight of general licensees and GLDs by
informing each new general licensee of regulatory requirements, and
periodically re-informing general licensees of regulatory requirements.

The Atomic Energy Act, through the Code of Federal Regulations, establishes
regulatory requirements for GLDs. However, NRC relies on manufacturers to
make general licensees aware of these requirements, thereby delegating some
of its responsibilities. When licensees are unaware of their regulatory
requirements, there is an increased probability that accountability of GLDs will
decrease, placing public health and safety and the environment at risk.

RECOMMENDATIONS

This report makes two recommendations to improve the agency‟s accountability
and tracking of general licensed devices.




                                 ii
                             Audit of NRC‟s 10 CFR Part 31 General Licensing Program



AGENCY COMMENTS

An exit conference was held with the agency on September 4, 2012. At this
meeting, agency management provided supplemental information that has
been incorporated into this report as appropriate.

On September 21, 2012, NRC‟s Executive Director for Operations provided a
formal response to this report (Appendix C). No changes were made to the
report, based on the agency‟s formal response. OIG‟s response to the
agency‟s formal comments is presented in Appendix D.




                               iii
                               Audit of NRC‟s 10 CFR Part 31 General Licensing Program




ABBREVIATIONS AND ACRONYMS


       CFR     Code of Federal Regulations

       GLD     general licensed device

       GLTS    General License Tracking System

       NMED    Nuclear Materials Events Database

       NRC     Nuclear Regulatory Commission

       OIG     Office of the Inspector General




                                 iv
                                                   Audit of NRC‟s 10 CFR Part 31 General Licensing Program




TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................................ i

        ABBREVIATIONS AND ACRONYMS ........................................................ iv

        I.     BACKGROUND ................................................................................. 1

        II.    OBJECTIVE ....................................................................................... 4

        III.   FINDING ............................................................................................ 4

                      RECOMMENDATIONS ................................................................... 17

        IV.    AGENCY COMMENTS.................................................................... 18

        APPENDIXES

                 A. OBJECTIVE, SCOPE, AND METHODOLOGY........................ 19

                 B. Appendixes B-1 through B-6 provide General License
                    Regulatory Requirements for various categories of devices
                    and materials covered in 10 CFR Part 31 ................................ 21

                 C. FORMAL AGENCY COMMENTS ............................................ 28

                 D. OIG RESPONSE TO FORMAL AGENCY COMMENTS ......... 29




                                                       v
                                                       Audit of NRC‟s 10 CFR Part 31 General Licensing Program




I.      BACKGROUND

                 The Nuclear Regulatory Commission‟s (NRC) mission is to regulate the
                 Nation's civilian use of byproduct, source, and special nuclear materials1 to
                 ensure adequate protection of public health and safety, to promote the common
                 defense and security, and to protect the environment. NRC issues two types of
                 domestic licenses to users of nuclear materials. Specific licenses2 are issued
                 to named individuals who have filed an acceptable application to use certain
                 types or quantities of radioactive materials. In contrast, general licenses are
                 provided by regulations found in Title 10, Code of Federal Regulations (10
                 CFR) Part 31, General Domestic Licenses for Byproduct Material. These
                 regulations allow persons to receive and use a general licensed device
                 containing byproduct or source material if the device has been manufactured
                 and distributed in accordance with a specific license issued by NRC or an
                 Agreement State.3

                 General Licensed Devices

                 A general licensed device (GLD) consists of radioactive material encased in a
                 capsule within a shielded device. The design of a GLD is subject to a
                 regulatory review and safety evaluation to ensure that the device is in
                 compliance with NRC requirements prior to approval for distribution. NRC
                 asserts that the GLDs are designed with inherent radiation safety features so
                 that they can be used by persons with no radiation safety training or
                 experience. A few of the more commonly used GLDs include fixed gauges,
                 static elimination devices, x-ray fluorescence analyzers, and luminous (tritium)
                 exit signs.



1
  Byproduct material includes, but is not limited to, nuclear material (other than special nuclear material) that is
produced or made radioactive in a nuclear reactor, discrete sources of radium-226, and accelerator produced
radioactive material that is produced, extracted, or converted after extraction for a commercial, medical, or
research activity. Source material is either the element thorium or the element uranium, provided that the
uranium has not been enriched in the isotope uranium-235. Depleted uranium (left over from uranium
enrichment) is also considered source material. Special nuclear material consists of uranium-233 or
uranium-235, enriched uranium, or plutonium.
2
  A specific license is a document issued by NRC to a named person who has filed an application. NRC
conducts a detailed review of the radioactive materials program proposed by the applicant. A specific licensee
is subject to routine inspections and other requirements.
3
 An Agreement State is a U.S. State that has signed an agreement with NRC authorizing the State to regulate
certain uses of radioactive materials within the State. NRC relinquishes to such States portions of its regulatory
authority to license and regulate byproduct materials, source materials, and certain quantities of special nuclear
materials.

                                                          1
                                                           Audit of NRC‟s 10 CFR Part 31 General Licensing Program



                   How NRC Regulates General Licenses and GLDs

                   NRC‟s Office of Federal and State Materials and Environmental Management
                   Programs is primarily responsible for the regulation of GLDs. Specifically, the
                   Licensing Branch within the office provides program oversight for the general
                   licensing program. In addition to developing and implementing technical and
                   policy guidance, the branch is responsible for the following:

                        Safety evaluation reviews of sealed sources and devices–The design and
                        use of a device must undergo a technical and safety review prior to
                        distribution as a GLD. This review ensures that the device is designed and
                        built to be used safely by someone without training in radiological protection.
                        Satisfying the review ensures that the device meets NRC‟s safety
                        requirements. NRC staff monitor reports of events involving nuclear
                        materials in the Nuclear Material Events Database (NMED)4 to ensure that
                        devices approved for distribution as GLDs continue to meet safety
                        requirements in practice.

                        General License Tracking System (GLTS)–GLTS facilitates the tracking and
                        accountability of GLDs and general licensees. This database is populated
                        primarily with information provided to NRC from device manufacturers.
                        GLTS is also updated when a general licensee or a vendor reports a device
                        transfer. The database stores information about NRC‟s current general
                        licensees, with device and vendor information.

                        Registration–General licensees in possession of GLDs containing certain
                        isotopes and activity5 are required to register their devices with NRC
                        annually. The registration requires licensees to verify and provide NRC the
                        location of the devices and specific information about the licensee and
                        submit an annual fee (currently $400) to NRC.

                   When needed, inspection support for general license oversight is provided by
                   three NRC regional offices (Region I, King of Prussia, PA; Region III, Lisle, IL;
                   and Region IV, Arlington, TX).6




4
 NMED contains records of events involving nuclear material reported to the NRC by NRC licensees,
Agreement States, and non-licensees.
5
    Activity is the rate of disintegration or decay of radioactive material per unit of time.
6
 General licensees are not inspected routinely. Failure of a licensee to return NRC‟s annual registration
paperwork or a significant reported event are often causes for an inspection.
                                                             2
                                                   Audit of NRC‟s 10 CFR Part 31 General Licensing Program



               Universe of NRC GLDs and General Licensees

               The universe of GLDs and general licensees tracked in GLTS is shown below
               in Table 1:

               Table 1: The Universe of NRC GLDs and General Licensees
                        Tracked in GLTS7
                                                  Number of Active              Number of
                                                     Devices                 General Licensees
                All General Licensees
                                                      147,734                      17,115
                General Licensees
                Possessing Only Tritium                   96,980                     9,667
                Exit Signs
                General Licensees
                Required to Register                      3,055                        633

               Source: GLTS as of June 2012



               In NRC jurisdiction, 147,734 active devices are tracked in GLTS. Tritium exit
               signs represent the vast majority of the devices tracked in GLTS. Tritium exit
               signs are considered very low risk to public health and safety and are exempt
               from regulation in some other industrialized countries. Approximately 3.7
               percent of the 17,115 general licensees in NRC jurisdiction are required to
               register their devices.

               Resources Allocated

               In fiscal year 2012, NRC dedicated approximately $890,000 in total resources
               to administering the general licensing program. This includes 2.3 full-time
               equivalent staff located at NRC headquarters and regional offices.




7
  GLTS tracks only items distributed pursuant to §31.5 and §31.7, which are required to be reported to NRC,
therefore, Table 1 represents only these GLDs and general licensees possessing these items in NRC
jurisdiction. The majority of general licensees are in Agreement States who oversee approximately 85 percent
of materials licensees.
                                                      3
                                          Audit of NRC‟s 10 CFR Part 31 General Licensing Program




II.    OBJECTIVE

           The audit objective was to determine if NRC‟s general licensing program
           provides for the necessary accountability and tracking of general licensed
           devices to protect public health and safety. Appendix A provides information on
           the audit scope and methodology.



III.   FINDING

           Over the past decade, NRC has made some improvements to its oversight of
           general licensees and GLDs to facilitate adequate protection of public health
           and safety and the environment; however, opportunities exist for NRC to further
           strengthen its oversight of this type of licensee. In order to improve program
           oversight, NRC has developed and maintains GLTS and the registration
           program. NRC can further improve oversight of general licensees and GLDs by
           informing each new general licensee of regulatory requirements, and
           periodically re-informing general licensees of regulatory requirements.

           Many general licensees are unaware of NRC regulatory requirements. The
           Atomic Energy Act, through the Code of Federal Regulations, establishes
           regulatory requirements for GLDs. However, NRC relies on manufacturers to
           make general licensees aware of these requirements, thereby delegating some
           of its responsibilities. When licensees are unaware of their regulatory
           requirements, there is an increased probability that accountability of GLDs will
           decrease, placing public health and safety and the environment at risk.


           The Atomic Energy Act and the Code of Federal Regulations

           The Atomic Energy Act, as interpreted by NRC in the Code of Federal
           Regulations, establishes standards which the licensees must meet.

           Atomic Energy Act

           The Atomic Energy Act of 1954, as amended, establishes the licensing of
           byproduct material for research or development purposes; for medical therapy,
           industrial, and agricultural uses; or other applications. General licenses, as well
           as specific licenses, are authorized in the act. The act also obligates NRC to
           ensure the capabilities of any licensee, including a general licensee, to use the
           byproduct material according to regulatory standards, stating NRC:

                                            4
                                                      Audit of NRC‟s 10 CFR Part 31 General Licensing Program



                         shall not permit the distribution of any byproduct material
                         [such as in a GLD] . . . to any licensee, who is not equipped
                          to observe or who fails to observe such safety standards
                           . . . to protect health or who uses such material in violation
                          of law. . . .8

                 To fulfill its mission of ensuring protection of public health and safety when
                 nuclear materials are used, NRC must obtain assurance that its licensees have
                 the necessary resources to perform licensed activities in a manner that protects
                 public health and safety.


                 Figure 1: Continuous Gamma Level Gauge




                 Source: Thermo Scientific Web site

                 Code of Federal Regulations

                 10 CFR defines how NRC will oversee general licenses by providing
                 requirements for the general licensees and for the specific licensees who
                 manufacture and distribute GLDs.

                 NRC issues and regulates a variety of general licenses under 10 CFR Part 31.
                 The specific requirements vary with the type of device and radioactive material
                 covered in each section of the regulations. Typical general licenses are listed
                 in Table 2. The NRC regulatory requirements for these types of general
                 licenses are enumerated in Appendixes B-1 through B-6 of this report.




8
    Atomic Energy Act of 1954, as amended, §81.a.

                                                        5
                                                    Audit of NRC‟s 10 CFR Part 31 General Licensing Program



    Table 2: Types of Part 31 General Licenses9

       10 CFR       Type of General License                           Regulatory Requirements
       Section
                    Certain detecting, measuring, and
                    controlling devices, and certain devices
                                                                      Subject to numerous regulatory
                    for producing light or an ionized
       §31.5                                                          requirements for reporting,
                    atmosphere (e.g., density gauges, gas
                                                                      recordkeeping, transfers, and
                    chromatographs, and luminous tritium
                                                                      disposal, among other
                    exit signs).
                                                                      responsibilities. Requirements
                    Luminous safety devices for use in
                                                                      presented in greater detail in
                    aircraft (with not more than 10 curies of
       §31.7                                                          Appendixes B-1 and B-2.
                    tritium or 300 millicuries of promethium-
                    147 per device).
                    Americium-241 and radium-226 in the               Sources not tracked; used in
       §31.8
                    form of calibration or reference sources.         conjunction with specific license.
                    Strontium-90 in ice detection devices
                                                                      No reporting requirements; not
       §31.10       (containing not more than 50
                                                                      tracked.
                    microcuries).
                                                                      Materials not tracked; used with
                    Use of byproduct material for certain
       §31.11                                                         a specific license or registered
                    in vitro clinical or laboratory testing.
                                                                      as practicing in vitro testing.
                                                                      Not tracked; specific license
                    Certain items and self-luminous devices
       §31.12                                                         required above a threshold
                    containing radium-226.
                                                                      quantity of items.
    Source: Office of the Inspector General (OIG) analysis of NRC regulations



                 NRC made a risk-informed decision not to track §31.10 and §31.12 items.

                    There are no reporting requirements for devices covered by the general
                    license in §31.10. However, devices containing greater amounts of
                    strontium-90 are subject to the requirements in §31.5 and are tracked, and
                    certain devices with higher levels of activity must be registered.

                    Items subject to the general license in §31.12 are, for the most part, small
                    timepieces and self-luminous devices in aircraft and marine vehicles. Many
                    are part of museum collections or may be possessed by individual
                    collectors. The general license contains a limit for the number of items that


9
 Regulatory requirements for certain static eliminators and ion generating tubes general licensed under 10 CFR
§31.3 are not included in this table. Rulemaking (Federal Register 77:143, pages 43666-43696) effective
October 23, 2012, will exempt these devices from licensing.

                                                       6
                                                    Audit of NRC‟s 10 CFR Part 31 General Licensing Program




                    can be used or stored under a general license; when that number is
                    exceeded, a specific license must be obtained.

                NRC‟s general licensing program focuses on §31.5 and §31.7 devices. These
                licensees are expected to comply with a range of requirements for the general
                license. These requirements fall into several broad categories, such as
                submitting reports to NRC within prescribed time limits, adhering to restrictions
                on the transfer and disposal of GLDs, and implementing a program to manage
                the possession and routine use of GLDs. The full requirements for general
                licensees under 10 CFR §31.5 and §31.7 are listed in Appendixes B-1 and B-2.

                NRC‟s ability to oversee general licensees, and to track GLDs and the
                radiological material they contain, depends on proper fulfillment of restrictions
                on servicing and transfers of GLDs and meeting requirements for general
                licensee recordkeeping and reporting to NRC. General licensees must remain
                aware of and comply with all of the requirements so that NRC can ensure
                public health and safety.

                NRC regulations assign an important role for GLD manufacturers10 in ensuring
                general licensee awareness of regulatory requirements. Manufacturers must
                hold specific licenses. In addition to ensuring that their devices meet NRC
                guidelines for safety, manufacturers also have regulatory requirements under
                10 CFR Part 32 related to distribution of GLDs. One important requirement for
                manufacturers is that they must provide specific information to general
                licensees about regulatory requirements. The regulations state that
                manufacturers of devices for possession and use under 10 CFR Part 31.5 must
                provide the following:

                    A copy of the general license and safety requirements from NRC regulations
                    or equivalent Agreement State regulations.

                    A list of services that can be performed only by a specific licensee, such as
                    transportation or repair of the GLD.

                    Information on acceptable disposal options and estimated costs of disposal.

                    An explanation of possible penalties for improper disposal.



10
  Although the regulations for providing information to general licensees apply to both manufacturers and
distributors of GLDs, to simplify, this report will refer only to manufacturers hereafter.
                                                       7
                                Audit of NRC‟s 10 CFR Part 31 General Licensing Program



Manufacturers also must report to NRC, on a quarterly or annual basis, all
transfers of devices to general licensees. The reports must include information
about the device and about the general licensee receiving the device, such as
address and name of responsible person. Accurate and timely reports enable
NRC to track individual GLDs.

General Licensees Lack Awareness of NRC Regulatory Requirements

Many general licensees are unaware of NRC regulatory requirements despite
provisions requiring manufacturers to provide this information to general
licensees at the time of device distribution. Through NMED and NRC
inspection reports, staff have identified many cases in which general licensees
are unaware of NRC regulatory requirements. These cases show that
throughout the last decade, general licensees have failed to fulfill every
applicable requirement in 10 CFR Part 31. Several recent examples of
licensees failing to fulfill NRC‟s regulatory requirements follow.

Device Transfer Reporting Requirement

A Federal agency laboratory possessing specifically licensed devices and
GLDs did not leak test its GLDs as required by regulations and also transferred
GLDs to another licensee without proper reporting to NRC. The laboratory
program management was not aware that there were different requirements for
the GLDs than for the materials and devices under the specific license.

Appointment of Responsible Person Requirement

One large general licensee lost numerous GLDs. NRC inspectors found that
the corporate office centrally purchased the devices and received all technical
information about regulatory requirements for the GLDs. Local managers
should have been appointed as the “responsible persons,” but they did not
receive the information, were not aware of the requirements for the devices
installed in their facilities, and did not maintain accountability for the devices.

Recordkeeping Requirement

An NRC inspector visited a facility and found a GLD in use at the location on
record but could not verify that the required tests had been conducted on the
GLD. A personnel change at the facility led to a loss of records related to the
required leak tests and shutter tests for the GLD.



                                  8
                                                   Audit of NRC‟s 10 CFR Part 31 General Licensing Program



                 Bankruptcy Notification Requirement

                 A company possessing GLDs had been acquired by another firm, which then
                 became the general licensee. The new general licensee did not notify NRC, as
                 required by regulations, when it later went bankrupt. NRC discovered the
                 bankruptcy when it attempted to verify the location of the device for registration.

                 NRC headquarters and regional office staff described lack of awareness as a
                 significant challenge with general licensees. Some observed it is a common
                 occurrence, especially among smaller firms, that the person initially responsible
                 for the devices will leave, as in the bankruptcy example where the business
                 changed hands. Although some NRC staff asserted that larger firms are aware
                 of the regulatory requirements, this is not always the case. Other examples
                 show that Federal agencies and large corporations also can lack awareness of
                 the regulatory requirements for GLDs.

                 Manufacturers Provide NRC‟s Regulatory Requirements to General Licensees

                 Manufacturers meet the regulatory requirement11 of providing information prior
                 to distribution of devices to general licensees. In some cases, however, the
                 information provided to general licensees regarding regulatory requirements for
                 GLDs is unclear and potentially confusing. The following examples of guidance
                 supplied by manufacturers illustrate the challenges:

                        One manufacturer‟s safety manual places important information regarding
                        general licenses and GLD safety in the specific license section, where it
                        could be overlooked by a general licensee.

                        Another manufacturer‟s manual conveys the required regulations to the
                        general licensee but adds the incorrect and confusing statement that
                        because the device has been distributed under the manufacturer‟s specific
                        license, the user is “a „General Licensee‟ under the [manufacturer‟s]
                        license.”

                        A third manufacturer provides the essential requirements to the general
                        licensee in two separate booklets. The operating manual has the
                        regulations reprinted in full, and the safety manual contains specific
                        descriptions of what the general licensee is required to do and how to do it.
                        The separation of material in this way could make it more likely that



11
     10 CFR 32.51a(a)
                                                     9
                              Audit of NRC‟s 10 CFR Part 31 General Licensing Program



   important information will be overlooked or lost, preventing a
   general licensee‟s complete understanding of the regulatory requirements.

Such diverse styles of presenting regulatory requirements may not provide a
clear and consistent understanding of the requirements among all general
licensees. NRC staff questioned whether manufacturers supply all the
information general licensees need and stated that NRC should ensure GLD
manufacturers provide the proper information to device recipients.

NRC Approach to Problems with NRC‟s General Licensing Program

The challenges facing the general licensing program are not new, and NRC has
been working to address them since the 1980s. An NRC study in 1987 first
summarized general licensee incognizance of regulatory requirements, stating
that:

   General licensees did not know the location of their devices.

   General licensees frequently misplaced or did not read material supplied by
   the device manufacturer and did not realize they had any responsibility to
   comply with NRC requirements.

   Many general licensees were unaware of particular NRC requirements for
   disposal, transfer, reporting, leak tests, or shutter testing.

While considering how to address such lack of awareness, NRC conducted
another study, published in 1996. This study found that awareness of general
license requirements declines over time while a device is in a general
licensee‟s possession. A GLD may be in use for many years, during which
personnel who have knowledge of the device or applicable regulations leave, or
labels with general license information become lost or illegible.

NRC developed the annual registration program and GLTS in 2000-2001 to
address some issues identified by the agency studies.




                               10
                              Audit of NRC‟s 10 CFR Part 31 General Licensing Program



Figure 2: Static Eliminator




Source: Amstat Web site



Registration Program

NRC‟s general licensee annual registration program was intended to obtain an
annual inventory report from those general licensees possessing risk-significant
devices. Registration is currently functioning as designed in that NRC has a
99-percent response rate from the subset of general licensees required to
register their devices annually. However, the information provided annually by
NRC to general licensees (the registration package) does not include any
safety- or program management-related reminders to licensees. Instead,
NRC‟s registration package explains the requirement to register and how to file
the form confirming their inventory of GLDs. In addition, registration focuses on
only about 4 percent of general licensees; therefore, NRC tracks the remaining
96 percent only through GLTS.

General License Tracking System

GLTS was designed to be an information system to track GLDs. Currently, the
system supports the registration program, but contains errors that may hamper
broad oversight of general licensees. NRC staff report problems when they
attempt to use information from GLTS to locate missing general licensees and
GLDs. A general licensee‟s failure to return the registration form triggers NRC
staff attempts to verify the location of the devices required to be registered.
Examples of errors in GLTS information that surface during verification include
the following:

   A company had changed hands and the GLD was in use in the same
   location but the information had not been reported to NRC as required.




                                11
                              Audit of NRC‟s 10 CFR Part 31 General Licensing Program




   Devices had been placed on a company's specific license but the NRC
   general licensing program did not receive a report from the general licensee
   or from the NRC regional office.

   Although GLTS contained correct contact information for one registered
   device, the information supplied to the inspector was from a different,
   incorrect field of the GLTS record, and the inspector was unable to locate
   the general licensee or the device.

   A facility was closed for 15 years and the devices returned to the
   manufacturer, but the general licensee had failed to report this to NRC.

Failure of the general licensee to report as required was a problem in three of
these examples. General licensees that are unaware of NRC‟s regulatory
requirements frequently have lapses in compliance.

NRC Relies on Manufacturers and Does Not Routinely Communicate With
General Licensees

General licensees lack awareness of NRC‟s regulatory requirements because
NRC relies on manufacturers to communicate with general licensees. NRC
does not routinely communicate with all of its general licensees.

NRC Relies on Manufacturers

NRC relies on manufacturers to make general licensees aware of NRC‟s
regulatory requirements, delegating some of its oversight responsibilities.
Manufacturers provide NRC regulatory information to the general licensee and
report general licensee information to NRC, thus acting as the intermediary
between NRC and the general licensees at the time of device distribution.




                                12
                                   Audit of NRC‟s 10 CFR Part 31 General Licensing Program



Table 3: Communication From Manufacturers
                                 Manufacturer/
                                  Distributor




     Licensee                                                      NRC


                  Provides
                                                    Provides
                regulations to
                                                 reports to NRC
                   licensee


                          NRC has no contact with
                       licensees unless the device
                           requires registration



Source: OIG


However, NRC requires general licensees to be familiar with and abide by more
regulations than manufacturers are required to deliver with the device. NRC
requires general licensees to comply with numerous regulations. (See
Appendix B for a complete listing of the regulations.) However, manufacturers
are not required to include all of these regulations in the information they
provide with devices. Upon distribution of GLDs, manufacturers are required to
provide general licensees with copies of certain NRC regulations. The specific
regulations that 10 CFR Part 31.5 device manufacturers are required to
distribute are:

   10 CFR 31.5, the general license.

   10 CFR 31.2, general terms and conditions for general licenses.

   10 CFR 30.51, recordkeeping for transfers and disposal.

   10 CFR 20.2201 and 10 CFR 20.2202, reporting loss or theft and radiation
   overexposure incidents.

A challenge to general licensees arises from 10 CFR 31.2, which incorporates
by reference several sections of other regulations, “unless indicated otherwise
in the specific provision of the general license.” Specific provisions of the
general license in 10 CFR 31.5 preempt several of the general terms and



                                     13
                                                  Audit of NRC‟s 10 CFR Part 31 General Licensing Program




               conditions in 10 CFR 31.2. Other referenced regulations relate to what it
               means to be an NRC licensee, such as limits to licensed activities, submitting to
               inspections, and the possibility of civil penalties for violations. These significant
               requirements still apply to general licenses under 10 CFR 31.5, but
               manufacturers are not required by NRC regulations to provide the full text of all
               the applicable regulations. Although general licensees do not submit an
               application and most do not pay an annual fee, they remain NRC licensees and
               need to be fully informed of all requirements.

               Some manufacturers may provide NRC‟s Internet address for general licensees
               to look up the regulations. However, it may be difficult for general licensees
               unfamiliar with Federal regulations to locate and understand the numerous
               regulatory requirements from NRC‟s home page.

               NRC Does Not Routinely Communicate With the Vast Majority of General
               Licensees

               NRC does not routinely communicate with most general licensees. Unless
               devices require registration, NRC has no contact with general licensees and
               takes a hands-off approach for GLDs. An NRC working group12 report stated
               the following:

                       . . . a major contributing factor to licensees losing control
                       and accountability is the lack of adequate oversight by
                       regulatory authorities. Specifically, many users do not
                       have routine contact with the regulatory authorities. . . .
                       For almost all general licensees, the only connection
                       between the licensee and the regulatory authority is
                       through the vendor of the device.

               Because most general licensees are not required to register their devices,
               those possessing about 98 percent of GLDs do not receive any regular contact
               with or followup from NRC. According to NRC staff, lack of contact with the
               agency contributes to general licensees‟ lack of awareness and
               misunderstanding of regulatory requirements.




12
  Final Report of the NRC-Agreement State Working Group to Evaluate Control and Accountability of Licensed
Devices, October 1996 (NUREG-1551).

                                                    14
                                                     Audit of NRC‟s 10 CFR Part 31 General Licensing Program



                NRC has made some non-routine efforts to provide general licensees with
                important information, but the effectiveness of the efforts may be limited. For
                example:

                    NRC has a Web page that contains a toolkit for general licensees. This is a
                    passive approach to communication and assumes general licensees will
                    know there is a need to look for information and have access to the Web
                    site.

                    Although NRC staff lack confidence that Information Notices13 change
                    behavior of materials licensees, NRC issued Information Notices to general
                    licensees because not all regulatory requirements were being met.
                    However, the Information Notices required no specific licensee action or
                    response.

                NRC took a more direct approach when it published a Regulatory Issue
                Summary14 in 2006 about disposal of tritium exit signs. This mailing, to both
                general licensees possessing tritium exit signs and to the specific licensees that
                manufacture and distribute them, reiterated NRC‟s regulatory requirements with
                the intent of minimizing chances that the devices would be disposed of
                incorrectly. The use of the Regulatory Issue Summary was a reaction to
                concerns about general licensees‟ lack of awareness regarding their
                responsibilities. However, NRC‟s approach remains based on a regulatory
                structure that tightly controls manufacturers. By contrast, unless a general
                licensee is required to register a device, NRC‟s monitoring of GLDs is limited.

                Decreased Accountability of General Licensed Devices Poses a Potential
                Risk to Public Health and Safety and the Environment

                When licensees are unaware of their regulatory requirements, there is an
                increased probability that accountability for GLDs will decrease. Decreased
                accountability for GLDs can place public health and safety and the environment
                at risk.




13
  NRC uses Information Notices to provide significant recently identified operational information about safety,
safeguards, or environmental issues. Addressees are expected to review the information for applicability to their
facilities and consider actions, as appropriate, to avoid similar problems.
14
  NRC uses Regulatory Issue Summaries to announce technical or policy positions not previously
communicated to industry or not broadly understood.

                                                       15
                                                        Audit of NRC‟s 10 CFR Part 31 General Licensing Program



                   Figure 3: Continuous Level Detector




                   Source: Ohmart/Vega Web site


                   Lost, Abandoned, and Improperly Disposed Devices

                   General licensees continue to lose, abandon, and improperly dispose of GLDs
                   containing radioactive material, just as they did when NRC first studied the
                   problem in the 1980s. NRC tracks events and monitors nuclear material trends
                   across the country through NMED. A search of NMED identified that over a 5-
                   year period,15 there were 341 reports16 of lost, abandoned, and improperly
                   disposed GLDs reported across the United States. As would be expected,
                   approximately 80 percent of the event reports came from Agreement States.
                   However, such events also commonly occurred in NRC jurisdiction throughout
                   the 5-year period.

                   Members of the public who encounter GLDs after they have been lost,
                   abandoned, or improperly disposed can be exposed to low doses of radiation.

                   There is also ongoing concern with the environmental impact resulting from
                   inadequate control of products containing radioactive materials. In the past,
                   improper disposal has led to the contamination of metal scrap process recycling
                   streams, resulting in significant environmental cleanup costs and potential
                   worker exposure. Many metal recycling facilities have installed detectors to
                   screen incoming loads for radioactive materials and, as a result, lost GLDs are
                   sometimes discovered in scrap metal. However, not all lost radioactive devices



15
     July 1, 2007, through June 30, 2012.
16
     Of the 341 reports, 253 were related to lost or improperly disposed luminous (tritium) exit signs.
                                                          16
                               Audit of NRC‟s 10 CFR Part 31 General Licensing Program



are recovered; some improperly disposed devices are exported in scrap metal
shipments.

NRC Staff Concerns

NRC staff note the continued problems from loss of accountability and control
of GLDs. One staff member stated that the “lack of awareness by general
licensees is the reason NRC finds general licensed devices on the auction
block or in the scrapyard.” Another staff member agreed with the statement,
adding that GLDs “are not recognized as radioactive and are sold or sent to
scrapyards.” A stakeholder pointed out that NRC cannot know what is not
reported.

Reporting Reliability

When general licensees are unaware of regulations and fail to report as
required by NRC, the agency lacks the best information to support effective
long-term oversight of the program. For NRC to ensure that general licensees
are conducting their activities in a manner that protects public health and safety
and the environment, NRC must have reliable information to track general
licensees and GLDs.

Recommendations

OIG recommends that the Executive Director for Operations:

   1. Develop and implement procedures for NRC to provide information
      clearly describing all applicable regulatory requirements each time an
      NRC general licensed device is distributed to an NRC general licensee.

   2. Develop and implement procedures for NRC to periodically reinform
      existing general licensees of applicable regulatory requirements.




                                 17
                                      Audit of NRC‟s 10 CFR Part 31 General Licensing Program




IV.   AGENCY COMMENTS

         An exit conference was held with the agency on September 4, 2012. At this
         meeting, agency management provided supplemental information that has
         been incorporated into this report as appropriate.

         On September 21, 2012, NRC‟s Executive Director for Operations provided a
         formal response to this report (Appendix C). No changes were made to the
         report, based on the agency‟s formal response. OIG‟s response to the
         agency‟s formal comments is presented as Appendix D.




                                       18
                                           Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                                     APPENDIX A
OBJECTIVE, SCOPE, AND METHODOLOGY


    OBJECTIVE

            The audit objective was to determine if NRC‟s general licensing program
            provides for the necessary accountability and tracking of general licensed
            devices to protect public health and safety.


    SCOPE

            We conducted this performance audit at NRC headquarters (Rockville, MD)
            and three NRC regional offices (Region I, King of Prussia, PA; Region III, Lisle,
            IL; and Region IV, Arlington, TX) from November 2011 through June 2012.
            OIG also interviewed staff in the Agreement States of Maryland (Baltimore) and
            Pennsylvania (Harrisburg), during this timeframe. Internal controls related to
            the audit objectives were reviewed and analyzed. Throughout the audit,
            auditors were aware of the possibility or existence of fraud, waste, or misuse in
            the program.


    METHODOLOGY

            The audit team reviewed relevant criteria, including the Atomic Energy Act of
            1954, as amended; 10 CFR Part 31, General Domestic Licenses for Byproduct
            Material, and Part 32, Specific Domestic Licenses to Manufacture or Transfer
            Certain Items Containing Byproduct Material; and NRC's Principles of Good
            Regulation. The team also reviewed NRC Information Notices, Commission
            Papers, and Staff Requirements Memoranda.

            The audit team reviewed NMED and inspection reports to determine whether
            general licensees comply with NRC requirements. The team also reviewed the
            reporting and tracking of general licensed devices in GLTS.

            At NRC headquarters, auditors interviewed Office of Federal and State
            Materials and Environmental Management Programs staff and management to
            gain an understanding of their roles and responsibilities related to the oversight
            of general licenses. Auditors interviewed staff and management from NRC
            Regions I, III, and IV to gain an understanding of how each region oversees


                                             19
                              Audit of NRC‟s 10 CFR Part 31 General Licensing Program



general licenses. Auditors also interviewed staff in the Agreement States to
gain an understanding of the State general licensing programs.

We conducted this performance audit in accordance with generally accepted
Government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

The audit work was conducted by Sherri Miotla, Team Leader; Robert
Woodward, Audit Manager; Kevin Nietmann, Senior Technical Advisor;
Maxinne Lorette, Senior Auditor; and Amy Hardin, Auditor.




                                20
                                                             Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                                                                 APPENDIX B-1

       Regulatory requirements for certain detecting, measuring, and controlling devices,
               and certain devices for producing light or an ionized atmosphere
                           generally licensed under 10 CFR Part 31.5
      Requirement
                                        Description of Requirement                                       Regulation
        Name
     Report theft or    Describes when licensee must report by telephone or in writing a 10 CFR 20.2201
     loss of licensed   theft or loss; certain reports must be made within 24 hours, others
1
     radioactive        within 30 days; specifies content of reports.
     material
     Report exposure    Describes exposure thresholds where licensee must report           10 CFR 20.2202
2
     incidents          radiation incidents to NRC.
     Exempt             Transfer to an exempt person must be under a specific license.     10 CFR 30.14(d)
3    quantities and
     products
     License terms      Licensee shall confine his possession and use to the locations and 10 CFR 30.34(a)-(e)
4    and conditions     purposes authorized in the license; Commission can change terms
                        by rule or order.
     Transfers of       Transfer permitted to a specific licensee or a general licensee;   10 CFR 30.41
     licensed           transferring licensee must verify that recipient is authorized to
5
     radioactive        possess the material.
     material
     Reporting          Describes when licensee must report incidents by telephone or in 10 CFR 30.50
6    requirements       writing; certain reports must be made immediately, within 24
                        hours, others within 30 days; specifies content of reports.
     Records            Receipt/transfer/disposal of material; transfer records to NRC       10 CFR 30.51
7                       when license terminated; retention periods specified elsewhere in
                        regulations or as license condition.
     Inspections        General licensees not normally inspected but if NRC wishes to        10 CFR 30.52
8                       inspect a general licensee, material, facility, and records must be
                        available for inspection.
     Tests as required Licensee shall perform such tests of byproduct material, facilities, 10 CFR 30.53
9                       radiation detection devices as the Commission deems necessary
                        to administer the regulations.
     Modify license     License conditions can be modified by amendment of laws or           10 CFR 30.61
10   conditions by rule regulations; license can be revoked for false statements or for
     change             violations.
     Withholding        Commission may withhold byproduct material from a licensee not 10 CFR 30.62
11   materials          equipped to observe or who fails to observe safety standards or
                        protect health.
     Violations and     Commission may obtain a court order to prevent violation of the      10 CFR 30.63
12   civil penalties    Commission‟s regulations; Commission may impose a civil penalty
                        for violations.
     General license Licensee shall confine his possession and use of the byproduct          10 CFR 31.2
     terms and          material to the locations and purposes authorized in the license; in
13   conditions         addition, general licensees subject to 30.14(d), 30.34(a)-(e),
                        30.41, 30.50 to 30.53, 30.61 to 30.63, and Parts 19, 20, and 21,
                        unless otherwise specified.
     Types of devices General licensee is permitted to acquire, receive, possess, use or 10 CFR 31.5
                        transfer byproduct material contained in devices designed and
14                      manufactured by a specific licensee under §32.51 for the purpose
                        of detecting, measuring, gauging or controlling thickness, density,
                        level, interface location, radiation, leakage, or qualitative or
                        quantitative chemical composition, or for producing light or an
                        ionized atmosphere.
15   Labels             Labels must remain attached and general licensee must comply 10 CFR 31.5(c)(1)
                        with instructions of label.
     Leak testing       Leak test at least every 6 months (tritium exit signs exempt).       10 CFR 31.5(c)(2)
16
   Testing and       Must have a specific licensee perform these tasks.                    10 CFR 31.5(c)(3)
17 service by a
   specific licensee




                                                               21
                                                                Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                                                        APPENDIX B-1 continued

     Records of leak Maintain records showing compliance with leak testing                  10 CFR 31.5(c)(4)
18
     testing             requirement.
     Stop use if device Suspend operation if failure of shielding or on/off                 10 CFR 31.5(c)(5)
19
     fails               mechanism, report to NRC, repair by specific licensee.
     Do not abandon Shall not abandon the device containing byproduct material.             10 CFR 31.5(c)(6)
20
     device
     Do not export the Shall not export the device containing byproduct material.           10 CFR 31.5(c)(7)
21
     device
     Report Transfers Shall transfer only to a specific licensee, and within 30 days        10 CFR 31.5(c)(8)
22                       after the transfer of a device to a specific licensee or export,
                         furnish a report to NRC.
23   Transfer device Shall transfer the device to another general licensee only if          10 CFR 31.5(c)(9)
     to general          the device remains in use at a particular location.
     licensee
24   Reporting           Shall comply with the provisions of §§ 20.2201 and 20.2202         10 CFR 31.5(c)(10)
     radiation           of this chapter for reporting radiation incidents, theft or loss
     incidents, theft or of licensed material, otherwise exempt from Part 19, 20, 21.
     loss
25   Respond to          Shall respond to written requests from the Nuclear                 10 CFR 31.5(c)(11)
     written requests Regulatory Commission to provide information relating to the
     from NRC            general license within 30 calendar days of the date of the
                         request, or other time specified in the request.
26   Appoint a           Shall appoint an individual responsible for having knowledge       10 CFR 31.5(c)(12)
     responsible         of the appropriate regulations and requirements and the
     person              authority for taking required actions to comply with
                         appropriate regulations and requirements.
27   Register            Shall register, devices containing at least 370                    10 CFR 31.5(c)(13)
     appropriate         megabecquerels (10 millicuries) of cesium-137, 3.7
     devices             megabecquerels (0.1 millicurie) of strontium-90, 37
                         megabecquerels (1 millicurie) of cobalt-60, 3.7
                         megabecquerels (0.1 millicurie) of radium-226, or 37
                         megabecquerels (1 millicurie) of americium-241 or any other
                         transuranic (i.e., element with atomic number greater than
                         uranium (92)), based on the activity indicated on the label.
28   Report changes Shall report changes to the mailing address for the location            10 CFR 31.5(c)(14)
     in mailing          of use to NRC within 30 days of the effective date of the
     address             change.
29   Do not hold         May not hold devices that are not in use for longer than 2         10 CFR 31.5(c)(15)
     devices not in      years. If devices with shutters are not being used, the shutter
     use more than 2 must be locked in the closed position. The testing required
     years               by paragraph (c)(2) of this section need not be performed
                         during the period of storage only.




                                                                  22
                                                               Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                                                               APPENDIX B-2

              Regulatory requirements for luminous safety devices for use in aircraft
     (with not more than 10 curies of tritium or 300 millicuries of promethium-147 per device)
                                 licensed under 10 CFR Part 31.7
      Requirement
                                       Description of Requirement                                      Regulation
        Name
     Report theft or    Describes when licensee must report by telephone or in          10 CFR 20.2201
     loss of licensed   writing a theft or loss; certain reports must be made within 24
1
     radioactive        hours, others within 30 days; specifies content of reports.
     material
     Report exposure    Describes exposure thresholds where licensee must report        10 CFR 20.2202
2
     incidents          radiation incidents to NRC.
     Exempt             Transfer to an exempt person must be under a specific           10 CFR 30.14(d)
3    quantities and     license.
     products
     License terms      Licensee shall confine his possession and use to the            10 CFR 30.34(a)-(e)
4    and conditions     locations and purposes authorized in the license;
                        Commission can change terms by rule or order.
     Transfers of       Transfer permitted to a specific licensee or a general          10 CFR 30.41
     licensed           licensee; transferring licensee must verify that recipient is
5
     radioactive        authorized to possess the material.
     material
     Reporting        Describes when licensee must report incidents by telephone 10 CFR 30.50
     requirements     or in writing; certain reports must be made immediately,
6
                      within 24 hours, others within 30 days; specifies content of
                      reports.
   Records            Receipt/transfer/disposal of material; transfer records to NRC 10 CFR 30.51
 7                    when license terminated; retention periods specified
                      elsewhere in regulations or as license condition.
   Inspections        General licensees not normally inspected but if NRC wishes 10 CFR 30.52
 8                    to inspect a general licensee, material, facility, and records
                      must be available for inspection.
   Tests as required Licensee shall perform such tests of byproduct material,        10 CFR 30.53
 9                    facilities, radiation detection devices as the Commission
                      deems necessary to administer the regulations.
   Modify license     License conditions can be modified by amendment of laws or 10 CFR 30.61
   conditions by rule regulations; license can be revoked for false statements or
10
   change             for violations.

     Withholding        Commission may withhold byproduct material from a               10 CFR 30.62
     materials          licensee not equipped to observe or who fails to observe
11
                        safety standards or protect health.

   Violations and       Commission may obtain a court order to prevent violation of 10 CFR 30.63
12 civil penalties      the Commission‟s regulations; Commission may impose a
                        civil penalty for violations.
   General license      Licensee shall confine his possession and use of the           10 CFR 31.2
   terms and            byproduct material to the locations and purposes authorized
13 conditions           in the license; in addition, general licensees subject to
                        30.14(d), 30.34(a)-(e), 30.41, 30.50 to 30.53, 30.61 to 30.63,
                        and Parts 19, 20, and 21, unless otherwise specified.

   Type of device       Permits the ownership, receipt, acquisition, possession, and 10 CFR 31.7
14 and material         use of tritium or promethium-147 contained in luminous
   threshold            safety devices for use in aircraft provided that each device
                        contains not more than 10 curies of tritium or 300 millicuries
                        of promethium-147; devices must be manufactured by a
                        specific licensee under §32.53; General licensees exempt for
                        requirements of parts 19, 20, and 21 except for except for
                        the provisions in §20.2201 and 20.2202.




                                                                  23
                                                              Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                                                                     APPENDIX B-3

     Regulatory requirements for americium-241 and radium-226 in the form of calibration or
                  reference sources generally licensed under 10 CFR Part 31.8
      Requirement
                                          Description of Requirement                                       Regulation
        Name
     Training for       Describes the notices (including postings of regulations) and          10 CFR 19
     workers in         instructions to workers. Information that must be given to individuals
1
     radiation safety   who in the course of employment are likely to receive a one year
                        occupational dose in excess of 100 millirem.
     Radiation          Dose limits for workers and for members of the public; the features of 10 CFR 20
     protection         radiation safety programs to protect workers and the public;
2
     standards and      recordkeeping; reporting (e.g., theft or loss and incidents); and
     programs           enforcement of the requirements.
     Device defect      Specific requirements for identifying and reporting defects with       10 CFR 21
3
     reporting          substantial safety hazards to NRC within specific time limits.
     Exempt             Transfer to an exempt person must be under a specific license.         10 CFR 30.14(d)
4    quantities and
     products
     License terms      Licensee shall confine his possession and use to the locations and      10 CFR 30.34(a)-(e)
5    and conditions     purposes authorized in the license; Commission can change terms
                        by rule or order.
     Reporting          Describes when licensee must report incidents by telephone or in        10 CFR 30.50
6    requirements       writing; certain reports must be made immediately, within 24 hours,
                        others within 30 days; specifies content of reports.
     Records            Receipt/transfer/disposal of material; transfer records to NRC when     10 CFR 30.51
7                       license terminated; retention periods specified elsewhere in
                        regulations or as license condition.
     Inspections        General licensees not normally inspected but if NRC wishes to           10 CFR 30.52
8                       inspect a general licensee, material, facility, and records must be
                        available for inspection.
     Tests as required Licensee shall perform such tests of byproduct material, facilities,     10 CFR 30.53
9                       radiation detection devices as the Commission deems necessary to
                        administer the regulations.
     Modify license     License conditions can be modified by amendment of laws or              10 CFR 30.61
10   conditions by rule regulations; license can be revoked for false statements or for
     change             violations.
     Withholding        Commission may withhold byproduct material from a licensee not          10 CFR 30.62
11   materials          equipped to observe or who fails to observe safety standards or
                        protect health.
     Violations and     Commission may obtain a court order to prevent violation of the         10 CFR 30.63
12   civil penalties    Commission‟s regulations; Commission may impose a civil penalty
                        for violations.
     General license Licensee shall confine his possession and use of the byproduct             10 CFR 31.2
     terms and          material to the locations and purposes authorized in the license; in
13   conditions         addition, general licensees subject to 30.14(d), 30.34(a)-(e), 30.41,
                        30.50 to 30.53, 30.61 to 30.63, and Parts 19, 20, and 21, unless
                        otherwise specified.

   Must have           General license to possess calibration and reference sources         10 CFR 31.8(a)-(b)
   specific license to containing Am-241 and Ra-226 is granted to persons or government
   use this general agencies that hold specific licenses to possess, use, or transfer other
14
   license.            byproduct material; source must have been manufactured under a
                       specific license under §32.57.

     Requirements for General licensee is subject to §§30.14, 30.34(a)-(e), and 30.50 to        10 CFR 31.8(c)-(e)
     these sources    30.63; also subject to 10 CFR Parts 19, 20, 21; limits for use,
15
                      storage, transfer and disposal, prohibits abandonment, export, or
                      import.




                                                                24
                                                               Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                                                                APPENDIX B-4

                     Regulatory requirements for a general license for strontium-90
                           in ice detection devices under 10 CFR Part 31.10
      Requirement
                                       Description of Requirement                                       Regulation
        Name
     Disposal           A licensee shall dispose of licensed material only by transfer 10 CFR 20.2001
1    requirements       to an authorized recipient, by decay in storage, by release in
                        effluents, or as otherwise authorized.
     Report theft or    Describes when licensee must report by telephone or in          10 CFR 20.2201
     loss of licensed   writing a theft or loss; certain reports must be made within 24
2
     radioactive        hours, others within 30 days; specifies content of reports.
     material
     Report exposure    Describes exposure thresholds where licensee must report     10 CFR 20.2202
3
     incidents          radiation incidents to NRC.
     Exempt             Transfer to an exempt person must be under a specific license.10 CFR 30.14(d)
4    quantities and
     products
     License terms      Licensee shall confine his possession and use to the             10 CFR 30.34(a)-(e)
5    and conditions     locations and purposes authorized in the license;
                        Commission can change terms by rule or order.
     Transfers of       Transfer permitted to a specific licensee or a general           10 CFR 30.41
     licensed           licensee; transferring licensee must verify that recipient is
6
     radioactive        authorized to possess the material.
     material
     Reporting          Describes when licensee must report incidents by telephone       10 CFR 30.50
     requirements       or in writing; certain reports must be made immediately,
7
                        within 24 hours, others within 30 days; specifies content of
                        reports.
     Records            Receipt/transfer/disposal of material; transfer records to NRC   10 CFR 30.51
8                       when license terminated; retention periods specified
                        elsewhere in regulations or as license condition.
     Inspections        General licensees not normally inspected but if NRC wishes       10 CFR 30.52
9                       to inspect a general licensee, material, facility, and records
                        must be available for inspection.
     Tests as required Licensee shall perform such tests of byproduct material,          10 CFR 30.53
10                      facilities, radiation detection devices as the Commission
                        deems necessary to administer the regulations.
     Modify license     License conditions can be modified by amendment of laws or       10 CFR 30.61
11   conditions by rule regulations; license can be revoked for false statements or
     change             for violations.
     Withholding        Commission may withhold byproduct material from a                10 CFR 30.62
12   materials          licensee not equipped to observe or who fails to observe
                        safety standards or protect health.
     Violations and     Commission may obtain a court order to prevent violation of      10 CFR 30.63
     civil penalties    the Commission‟s regulations; Commission may impose a
13                      civil penalty for violations.
   General license      Licensee shall confine his possession and use of the           10 CFR 31.2
   terms and            byproduct material to the locations and purposes authorized
14 conditions           in the license; in addition, general licensees subject to
                        30.14(d), 30.34(a)-(e), 30.41, 30.50 to 30.53, 30.61 to 30.63,
                        and Parts 19, 20, and 21, unless otherwise specified.
   Ice detection        General license to own, use, transfer Sr-90 in ice detection 10 CFR 31.10
   devices              devices as long as activity not greater than 50 microcuries
   containing           and device is manufactured by a specific licensee under
15 strontium-90         §32.61; discontinue use in case of observable damage,
                        service should be provided by a specific licensee; label must
                        be maintained. Exempt from 19,20,21 except for 20.2001,
                        20.2201, 20.2202.




                                                                  25
                                                              Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                                                                      APPENDIX B-5

             Regulatory requirements for byproduct material for certain in vitro clinical
                 or laboratory testing generally licensed under 10 CFR Part 31.11
        Requirement
                                             Description of Requirement                                        Regulation
          Name
     Disposal of waste       Licensee shall dispose of licensed material only by transfer to      10 CFR 20.2001
     containing licensed     an authorized recipient under §20.2006 or as authorized in
1
     material                §§20.2002, 20.2003, 20.2004, 20.2005, 20.2008 (applicable
                             only to users of Mock-Iodine-125).
     Report theft or loss of Describes when licensee must report by telephone or in writing       10 CFR 20.2201
     licensed radioactive    a theft or loss; certain reports must be made within 24 hours,
2
     material                others within 30 days; specifies content of reports (applicable
                             only to users of Mock-Iodine-125)..
     Report exposure         Describes exposure thresholds where licensee must report             10 CFR 20.2202
3    incidents               radiation incidents to NRC (applicable only to users of Mock-
                             Iodine-125).
     Exempt quantities and Transfer to an exempt person must be under a specific license.         10 CFR 30.14(d)
4
     products
     License terms and       Licensee shall confine his possession and use to the locations       10 CFR 30.34(a)-(e)
5    conditions              and purposes authorized in the license; Commission can
                             change terms by rule or order.
     Reporting               Describes when licensee must report incidents by telephone or        10 CFR 30.50
6    requirements            in writing; certain reports must be made immediately, within 24
                             hours, others within 30 days; specifies content of reports.
     Records                 Receipt/transfer/disposal of material; transfer records to NRC       10 CFR 30.51
7                            when license terminated; retention periods specified elsewhere
                             in regulations or as license condition.
     Inspections             General licensees not normally inspected but if NRC wishes to        10 CFR 30.52
8                            inspect a general licensee, material, facility, and records must
                             be available for inspection.
     Tests as required       Licensee shall perform such tests of byproduct material,             10 CFR 30.53
9                            facilities, radiation detection devices as the Commission deems
                             necessary to administer the regulations.
     Modify license          License conditions can be modified by amendment of laws or           10 CFR 30.61
10   conditions by rule      regulations; license can be revoked for false statements or for
     change                  violations.
     Withholding materials Commission may withhold byproduct material from a licensee             10 CFR 30.62
11                           not equipped to observe or who fails to observe safety
                             standards or protect health.
     Violations and civil    Commission may obtain a court order to prevent violation of the      10 CFR 30.63
12   penalties               Commission‟s regulations; Commission may impose a civil
                             penalty for violations.
     General license terms Licensee shall confine his possession and use of the byproduct         10 CFR 31.2
     and conditions          material to the locations and purposes authorized in the license;
13                           in addition, general licensees subject to 30.14(d), 30.34(a)-(e),
                             30.41, 30.50 to 30.53, 30.61 to 30.63, and Parts 19, 20, and 21,
                             unless otherwise specified.
     General license for     General license to possess limited quantities of specified           10 CFR 31.11(a)(1)-(8), (d)(1)-(2)
     limited quantities      isotopes is granted to physicians, veterinarians, clinical
14                           laboratories, or hospitals; material must be in the form of a pre-
                             packaged units manufactured under a specific license under
                             §32.71 and affixed with a required label.
     Must register or have Persons possessing and using byproduct material under this             10 CFR 31.11(b)(1)-(2)
     a specific license to   general license must: register with NRC as practicing in vitro
15
     use this general        testing; or hold specific licenses under 10 CFR Part 35, Medical
     license.                Use of Byproduct Material.
     Requirements for        General licensee is subject to §§30.14, 30.34(a)-(e), and 30.50      10 CFR 31.11(c)(1)-(5), (e), (f)
     receiving, acquiring, to 30.63; with respect to the byproduct material under general
16   possessing, and use license, exempt from 10 CFR Parts 19, 20, 21, except for users
     under this general      of Mock-Iodine-125, who are subject to §§20.2001, 20.2201,
     license.                20.2202; limits for use, storage, and transfer.




                                                                26
                                                           Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                                                             APPENDIX B-6

                Regulatory requirements for a general license for certain items and
               self-luminous devices containing radium-226 under 10 CFR Part 31.12
     Requirement
                                    Description of Requirement                                       Regulation
       Name
   Disposal of        A licensee may dispose of byproduct material, as defined in 10 CFR 20.2008
   certain byproduct paragraphs (3) and (4) of the definition of Byproduct material
 1 material           set forth in § 20.1003 [discrete sources of Ra-226], at a
                      disposal facility authorized to dispose of such material in
                      accordance with any Federal or State solid or hazardous
                      waste law.
   Exempt             Transfer to an exempt person must be under a specific          10 CFR 30.14(d)
 2 quantities and     license.
   products
   License terms      Licensee shall confine his possession and use to the           10 CFR 30.34(a)-(e)
 3 and conditions     locations and purposes authorized in the license;
                      Commission can change terms by rule or order.
   Transfers of       Transfer permitted to a specific licensee or a general          10 CFR 30.41
   licensed           licensee; transferring licensee must verify that recipient is
 4
   radioactive        authorized to possess the material.
   material
   Inspections        General licensees not normally inspected but if NRC wishes 10 CFR 30.52
 5                    to inspect a general licensee, material, facility, and records
                      must be available for inspection.
   Tests as required Licensee shall perform such tests of byproduct material,        10 CFR 30.53
 6                    facilities, radiation detection devices as the Commission
                      deems necessary to administer the regulations.
   Modify license     License conditions can be modified by amendment of laws or 10 CFR 30.61
 7 conditions by rule regulations; license can be revoked for false statements or
   change             for violations.
   Withholding        Commission may withhold byproduct material from a              10 CFR 30.62
 8 materials          licensee not equipped to observe or who fails to observe
                      safety standards or protect health.
   Violations and     Commission may obtain a court order to prevent violation of 10 CFR 30.63
 9 civil penalties    the Commission‟s regulations; Commission may impose a
                      civil penalty for violations.
   General license Licensee shall confine his possession and use of the              10 CFR 31.2
   terms and          byproduct material to the locations and purposes authorized
10 conditions         in the license; in addition, general licensees subject to
                      30.14(d), 30.34(a)-(e), 30.41, 30.50 to 30.53, 30.61 to 30.63,
                      and Parts 19, 20, and 21, unless otherwise specified.

   General license    Antique items originally intended for use by the public, intact 10 CFR 31.12
   issued for         timepieces, luminous items installed in land, air, or marine
   particular items   vehicles, all other luminous products so long as no more
   (including         than 100 items are used or stored at the same location at
   antiques) in       any one time, small radium sources such as are used in
11 limited uses       educational demonstration items; report damage to NRC, do
                      not abandon or export, shall dispose only as specified in
                      §20.2008, shall respond to NRC request for information, only
                      timepieces may be disassembled; general licensees exempt
                      from Parts 19,20, and 21 except for §20.2008, and from
                      §30.50 and 30.51.




                                                              27
                         Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                   APPENDIX C
FORMAL AGENCY COMMENTS




                          28
                                    Audit of NRC‟s 10 CFR Part 31 General Licensing Program


                                                                              APPENDIX D
OIG RESPONSE TO FORMAL AGENCY COMMENTS


       On September 21, 2012, NRC‟s Executive Director for Operations provided a
       formal response to this report which expressed agreement that the report‟s
       recommendations may aid in improving general licensees‟ awareness of
       regulatory requirements and, subsequently, enhance the control of generally
       licensed devices over time.

       OIG will review the adequacy of agency corrective actions taken to address the
       report‟s recommendations during the audit followup process.




                                      29
